No. 19-223
Janice Smyth v. Conservation Commission of Falmouth and Town of Falmouth
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Reply in Support
of Petition for Writ of Certiorari contains 2,898 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 29, 2019.

J. DAVID BREEMER
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: jbreemer@pacificlegal.org
Counsel for Petitioner

